0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Motion for Leave to File and Brief Amicus
Curiae for the International Association of Insurance
Receivers in Support of Petitioners in 20-249, Doug
Ommen, in His Capacity as Liquidator of
CoOportunity Health, et al. v. Milliman, Inc., et al.,
was sent via Two Day Service to the U.S. Supreme
Court, and 3 copies were sent via Two Day Service and
e-mail to the following parties listed below, this 28th
day of October, 2020:
Michael Thomas Raupp
Husch Blackwell LLP
4801 Main Street, Suite 1000
Kansas City, MO 64112
(816) 983-8000
michael.raupp@huschblackwell.com
Counsel for Petitioners
Reid L. Ashinoff
Dentons US LLP
1221 Avenue of the Americas
New York, NY 10020-1089
(212) 768-6730
reid.ashinoff@dentons.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

,

8790 Governor's Hill Drive

Franklin Square

Suite l 02
Cincinnati, Ohio 45249

1300 I Street, NW, Suite 400E
Washington , DC 20005

Paul Koster
Counsel of Record
Emory Law School
Supreme Court Advocacy Program
1301 Clifton Road
Atlanta, GA 30322
(404) 727-5792
paul,koster@emory.edu
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 28, 2020.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

"-.J

